 

 

In The
Supreme Court of the United States
KENTON LANCE LIGHT,
Petitioner,
v.
THE STATE OF TEXAS,
Respondent.
On Petition For Writ Of Certiorari
To the Fourth Court of Appeals
of Texas

I, Jorge Aristotelidis, do swear or declare that on this date, January 7,
2021, as required by Supreme Court Rule 29, I have served the enclosed
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and
PETITION FOR A WRIT OF CERTIORARI on each party to the above
proceeding or that party’s counsel, and on every other person required to be
served, by depositing an envelope containing the above documents in the
United States mail properly addressed to each of them and with first-class
postage prepaid, or by delivery to a third-party commercial carrier for delivery
within 3 calendar days.

The names and addresses of those served are as follows:

District Attorney Gillespie County Attorney General Ken Paxton
Lucy Wilke Office of the Attorney General
402 Clearwater Paseo PO Box 12548

Suite 400 Austin, TX 78711-2548

Kerrville, TX 78028
I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 7, 2021.

 
  

ARISTOTELIDIS*
ilding

310 S. St. Mary’s Street

Suite 1910

San Antonio, TX 78205

(210) 277-1906
jgaristo67@gmail.com

Prospective Court-Appointed Counsel for Petitioner
